                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




  AUDITOF SUBGRANTS TO CITYYEAR,INC.
  THROUGH PENNSERVE,THE GOVERNOR'S
       OFFICEOF CITIZENSERVICE
                           06-21
            OIG REPORTNUMBER




                                                g77Tr§j-*AL &
                                                COMMUNITY
                                                SERVICE=




                        Prepared by:

                C O l l O N 8 COMPANY LLP
                635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on April 5,2006. Under the
laws and regulations governlng audit follow-up, the Corporation is to make final
management decisions on the report's findings and recommendations no later
than October 5, 2006, and complete its corrective actions by April 5, 2007.
Consequently, the reported findings do not necessarily represent the final
                                  (.",xTwnd"kAL &
                                  COMMUNITY
                                  SERVICE=


                         Audit of Subgrants to City Year, Inc.
                                Through PennSERVE,
                        The Governor's Office of Citizen Sewice
                                  Audit Report 06-21

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an audit of grants
awarded to City Year, Inc., (City Year), for Program Years 2002-2003, 2003-2004, and
2004-2005, through March 3 1, 2005. The audit resulted in seven reports that covered Nation
Direct grants and Corporation-funded state commission subgrants to City Year. This report
focuses on state commission Subgrants No. 00ASCPA0391701 and No. 03ACHPA001000 1,
which PennSERVE awarded to City Year.
The audit identified questioned costs for living allowances of five AmeriCorps members,
totaling $16,298. The audit questioned these costs because City Year lacked adequate
documentation that criminal background checks had been conducted or the checks had been
conducted after the members had contact with children. In addition, the auditors questioned
costs, totaling $4,725 for a member's education award because the member's timcsheets did
not support the hours reported in the Corporation's systems. The audit report also includes
four findings and ten recommendations to improve compliance with grant requirements and
to improve internal controls. City Year's response indicated a willingness to work with the
Corporation to resolve the findings and recommendations and has changed some policies and
procedures, but disagreed with some findings. The Corporation agreed to respond to the
recommendations when it issues its management decision. However, the Corporation
already decided to allow those costs questioned by the auditors, which related to the lack of
background checks on members who had contact with children. Although the Corporation
recognized the importance of background checks in such instances, it decided to allow the
costs because the issue of background checks is an issue of compliance, not eligibility. The
OIG disagrees with Corporation's rationale for allowing these costs because issues of
compliance are not a bar to disallowing costs.
The OIG reviewed Cotton & Company's report and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an audit in
accordance with generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, an opinion on Claimed and Questioned Costs in
ScheduleA of the report or conclusions on the effectiveness of internal controls and
compliance with laws and regulations. Cotton & Company is responsible for the attached
auditor's report dated September 2, 2005, and the conclusions expressed in the report.
However, our review disclosed no instances where Cotton & Company did not comply, in all
material respects, with generally accepted government auditing standards.
This report is a matter of public record, and its distribution is not limited.


                                             *
                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                                    *                      *
                      202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                       Senior Corps * AmeriCorps    Learn and Serve America
                       OFFICE OF INSPECTORGENERAL
               CORPORATION
                         FOR NATIONAL AND COMMUNITY  SERVICE
                    AUDITOF SUBGRANTSTO CITYYEAR,INC.
           THROUGH
                 PENNSERVE,THE GOVERNOR'S OFFICE OF CITIZEN
                                                          SERVICE

                                                           Contents

Section                                                                                                                                 Page

Executive Summary         ...........................................................................................................    1

Independent Auditors' Report              ...........................................................................................
Exhibit A: Consolidated Schedule of Claimed and Questioned Costs .............................                                           6

Schedule A: Schedule of Claimed and Questioned Costs for
  Subgrant No. 00ASCPA039 1701 ..................................................................................

Schedule B: Schedule of Claimed and Questioned Costs for
  Subgrant No. 03ACHPA0010001 .................................................................................                          D




Independent Auditors' Report on Compliance and Internal Control                                     ................................     10

Appendices

A: City Year Response to Audit Report ...........................................................................
B: Corporation Response to Audit Report ........................................................................
C: PennSERVE Response to Audit Report                         ......................................................................
Cotton & Company LLP, under an engagement with the Office of the Inspector General
(OIG), performed incurred-cost audits of City Year, Inc. (City Year) grants under the
AmeriCorps Program. City Year received several grant grants directly from the Corporation
and also received many subgrants from state commissions. We prepared an audit report for
City Year grants that it received directly from the Corporation and six separate reports for the
subgrants made by six state commission that we were engaged to audit. This report covers
City Year's subgrants from the PennSERVE: The Governor's Office of Citizen Service
(PennSERVE) for Program Years (PYs) 2002-2003,2003-2004, and 2004-2005, including
financial transaction testing and compliance testing of the subgrantsthrough PennSERVE.
Our audit report expresses a qualified opinion on the Consolidated Schedule of Claimed and
Questioned costs.

Additionally, we have also issued an Independent Auditors' Report on Compliance and
Internal Control. which included results of cost testing- and compliance and internal control
testing under all of City Year's grants from those state commissions as well as grants
awarded directly to City Year. Cost findings and compliance and internal control findings
are summarized under Audit Scope, Objectives, and Results.

City Year claimed $3,786,482 in costs in PYs 2002-2003,2003-2004, and 2004-2005 of
which we questioned costs of $16,298 that were unallowable as identified in our sampled
cost transactions or member compliance testing. We also questioned costs of $4,725 for
related education awards. In addition, our report includes four internal control and
compliance findings.

BACKGROUND

The Corporation supports a range of national and community service programs that provide
an opportunity for individuals (members) to serve full- or part-time. National Direct non-
profit organizations (e.g., City Year) receive funding under specific grants for such programs
as AmeriCorps, Education Award Only, and Promise Fellows. The grants are used to fund
members who earn living allowances and education awards. Education awards are
administered by the Corporation's National Service Trust (Trust) through a database of all
members that is updated by City Year and reported to the Trust. Members submit requests to
the Trust to redeem their earned awards, which are paid directly to higher education
institutions or holders of members' education loans.

City Year's national office, located in Boston, Massachusetts, has 95 full-time administrative
staff. City Year employees are paid by the AmeriCorps National Direct grant, Challenge
grant, and private funding sources. In PY 2004-2005, City Year had 15 operating sites,
located throughout the United States, with approximately 993 members. Site directors are
full-time City Year employees. These operating sites provide for day-to-day supervision of
AmeriCorps members.
        " .of funding- received from the Corporation flows through City Year's national
The maioritv
office to its operating sites. Although the operating sites incur costs, the grant funds are
managed at the national ofice through a centralized financial system. The AmeriCorps
grantsto the national office and its operating sites contain a matching requirement. (?ity
Year currently meets its matching requirement through private sector funds. All matching
costs are recorded in separate accounts.

City Year receives an annual Single Audit in compliance with OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations. We reviewed the Single
Audits for years ended June 30,2002,2003 and 2004. The Corporation funds were selected
as a major program in all years. City Year received unqualified opinions for those years, and
there were no reportable conditions or material weakness related to Corporation funding.
Additionally, City Year subgrants have been included in several OIG state commission
audits.

AUDIT SCOPE AND RESULTS

Our audit of City Year, as a subgrantee of PennSERVE, for PYs 2002-2003,2003-2004, and
2004-2005, covered financial transaction testing and compliance and internal control testing
of the following subgrants funded by the Corporation through PennSERVE:


   Program                  Subgrant No.             Grant Period           Audit Period
   Competitive           00ASCPA0391701            07101/00-06/30/03 07/01/02-06130103

   Competitive          03ACHPA0010001             0811 1103-08110106 0811 1103-03/31/05

Audit objectives were to determine whether:

       .        City Year's financial reports for the PennSERVE subgrants presented
                financial results fairly, and these costs were allowable in accordance with
                grant terms and conditions.

                Internal controls were adequate to safeguard Federal funds, and ensure
                adequate financial and program management oversight of its operating sites.

       -        City Year had adequate procedures and controls to ensure compliance with
                Federal laws, applicable regulations, and grant conditions.

Cost Findings

City Year claimed $3,786,482 in costs in PYs 2002-2003,2003-2004, and 2004-2005. We
questioned costs of $16,298. The term "questioned costs" is applied to those costs
questioned because of (1) an alleged violation or provision of law, regulation, contract, grant,
or cooperative agreement, or other agreement or document governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is
unnecessary or unreasonable.

Our audit report expresses a qualified opinion on the Consolidated Schedule of Claimed and
Questioned Costs. Our report is qualified because, at the request of the OIG, we did not
expand questioned costs identified in the sample to the entire population of claimed costs.
Except for identified questioned costs and the effect on questioned costs if we would have
expanded testing, costs claimed by City Year for the subgrants appear fairly stated and
allowable in accordance with grant terms and conditions.

AmeriCorps members who successfully complete terms of service are eligible for education
awards from the Trust. These award amounts are not funded by Corporation grants and thus
are not included in claimed costs. However, as part of our audit, wedetermined the effect of
audit findings on education award eligibility. using the same criteria described above, we
questioned education awards of $4,725. We did not question education awards applicable to
PY 2004-2005 as they were not earned as of March 31,2005.

Compliance and Internal Control Findings

Wc have issued a report, titled Independent Auditors' Report on Compliance and Internal
Control on our consideration of City Year's internal control and compliance with laws and
regulations. In that report, we identified findings required to be reported under generally
accepted government auditing standards. The findings are as follows:

1.     City Year did not have adequate procedures to ensure compliance with member
       requirements.

2.     City Year claimed unallowable and unsupported costs.

3.     City Year could improve procedures to ensure compliance with all grant provisions.

4.     City Year could improve its documentation of member activities.
EXIT CONFERENCE

Cotton & Company held an exit conference with City Year and Corporation representatives
on October 13,2005, and PennSERVE representatives the week of October 24,2005. The
OIG issued a separate report on March 24,2006, on National Direct grants and is issuing six
additional reports with regard to Corporation-funded subgrants through state commissions to
City Year, including this report. In January 2006, the OIG provided a draft of these reports
to City Year and the Corporation, and their responses that relate to this report are included in
the appendices. We also provided a draft of this report to PennSERVE, as a courtesy, in case
it chose to comment. Their responses are included in the appendices. The majority of City
Year's responses document its corrective action or improvements to its internal controls.
City Year, however, disagreed with the compliance finding related to criminal background
checks. The Corporation noted that it will address each issue during audit resolution, but
specifically commented on the compliance finding related to background checks, stating that
the Corporation does not intend to request reimbursement for those questioned costs.
Company
 September 2,2005

 Office of Inspector General
 Corporation for National and Community Service




 We have audited costs incurred by City Year, Inc. through Corporation-funded PennSERVE
 subgrants for PYs 2002-2003,2003-2004, and 2004-2005. These costs, as presented in the
 Consolidated Schedule of Claimed and Questioned Costs (Exhibit A) and the subgrant
 specific Schedules of Claimed and Questioned Costs (Schedules A and B), are the
 responsibility of City Year management. Our responsibility is to express an opinion on the
 schedules based on our audits.

       Program           Subgrant No.            Grant Period            Audit Period
     Competitive       00ASCPA0391701          07/01/00-06130103      07/01/02-06/30/03

     Competitive      03ACHPA0010001           O8/ll/O3-O8/lO/O6      0811 1103-03/31/05

 Except as described below, we conducted our audits in accordance with audit standards
 generally accepted in the United States of America and generally accepted government
 auditing standards. These standards require that we plan and perform the audits to obtain
 reasonable assurance about whether the financial schedules are free of material misstatement.
 An audit includes examining, on a test basis, evidence supporting amounts and disclosures in
 the financial schedules. An audit also includes assessing accounting principles used and
 significant estimates made by management, as well as evaluating overall financial schedule
 presentation. We believe that our audits provide a reasonable basis for our opinion on
 incurred costs.

 As noted above, our audit included examining transactions and member records on a test
 basis. During our testing, we identified a number of questioned costs due to member
 compliance issues. Codification of Statements on Auditing Standards, AU $326, requires
 auditors to gain sufficient competent evidential matter to identify and properly value all
 questioned costs. At the OIG's request, we did not expand testing to the remaining members,
 which would identify all questioned costs and related education awards.

 The Consolidated Schedule of Claimed and Questioned Costs and subgrant specific
 Schedules of Claimed and Questioned Costs are intended to present allowable costs incurred
 under the subgrants in accordance with Office of Management and Budget (OMB) Circular
 A-122, Cost Principles for Non-Profit Organizations, other applicable OMB circulars, and
 grant terms and conditions. Therefore, these are not intended to be complete presentations of
City Year's revenues and expenses in conformity with generally accepted accounting
principles. These schedules do not identify certain questioned education awards. These
costs are not funded by Corporation grants and thus are not included in claimed costs. As
part of our audits, however, we determined the effect of all member eligibility issues on these
awards.

In our opinion, except for questioned costs in the Consolidated Schedule of Claimed and
Questioned Costs, and the effect on questioned costs if we would have expanded testing as
discussed above, the financial schedules referred to above present fairly, in all material
respects, costs incurred by City Year for PYs 2002-2003,2003-2004, and 2004-2005
specified in the table above, in conformity with OMB Circular A-122, other applicable OMB
circulars, and grant terms and conditions.

In accordance with generally accepted government auditing standards, we have also issued a
report dated September 2,2005, on our consideration of City Year's internal control over
financial reporting and compliance with laws and regulations. This report is an integral part
of an audit performed in accordance with Government Auditing Standards and should be read
in conjunction with this report in considering audit results.

This report is intended solely for the information and use of the Office of Inspector General,
the Corporation for National and Community Service, City Year, PennSERVE and the US.
Congress and is not intended to be and should not be used by anyone other than these
specified parties.


             LLP
     & COMPANY
COTTON




Partner
                                                                      EXHIBIT A


                               CITYYEAR,INC.
            CONSOLIDATED
                       SCHEDULEOF CLAIMEDANDQUESTIONED   COSTSFOR
         SUBGRANTS
                 BY PENNSERVE,THE GOVERNOR'S OFFICEOF CITIZEN
                                                            SERVICES


                                            Questioned   Questioned
                  Approved     Claimed       Federal     Education
Subgrant No.       Budget       Costs         Costs       Awards       Schedule
00ASCPA0391701*   $1,740,000   $1,623,515            -      $4,725       A
03ACHPA0010001*    2.900.425    2,162,967      $16,298      -    -       B
Total             $4.640.425   $3.786.482      $16.298      $4.725
                                                                       SCHEDULE A



             SCHEDULE
                    OF CLAIMEDAND QUESTIONED COSTSUNDER
           PENNSERVE.THE GOVERNOR'SOFFICEOF CITIZEN
                                                  SERVICES




                                                       Amount       Note
          Approved Budget (Federal Funds)            $1,740,000
          Claimed Federal Costs                      $1,623,515

         Questioned Education Awards
          Unsupported member service hours                            1



1.   City Year claimed service hours, in the Corporation's Web-Based Reporting System,
     for one member; however, the hours were not supported by timesheets. Actual hours
     per timesheets did not support the required service hours for the education award
     earned by the member in PY 2002-2003. We questioned the education award of
     $4,725.
                                                                              SCHEDULE B


                            CITYYEAR,INC.
              SCHEDULE
                     OF CLAIMEDAND QUESTIONED  COSTSUNDER
            PENNSERVE,THE GOVERNOR'SOFFICE OF CITIZEN
                                                    SERVICES
                     SUBGRANTNO. 03ACHPA0010001
                        AMERICORPS-COMPETITIVE
                    AUGUST11,2003 TO MARCH31,2005


                                                         Amount        Notes
          Approved Budget (Federal Funds)               $2,900,425
          Claimed Federal Costs                         $2,162,967

          Questioned Federal Costs:
            Background check conducted after
                member started serving w/ children         $12,901        1
            No documentation that a background
                check was conducted                         $3,397        2
          Total Questioned Federal Costs                   klil&2%


1.   City Year permitted members to have substantial direct contact with children before
     the results of background checks were obtained and reviewed. Four of the five
     members sam~ledfrom Proeram  . Year 2004-2005. that had contact with children.
     were serving in the school system prior to the site's receipt of the background check
     information because the results were delayed by the FBI. The AmeriCorps
     Provisions, B.6.h, Criminal Record Check requires programs with members or
     employees who have substantial direct contact with children or who perform service
     in the homes of children or individuals considered vulnerable by the program, shall,
     to the extent permitted by state and local law, conduct criminal record checks on
     theses members or employees as part of the screening process. City Year believes
     that the provisions do not specifically state that the background checks must be
     received prior to a member starting service, and further notes that waiting weeks or
     possibly months for that information could substantially delay program performance.
     We questioned the claimed living allowances for these members of $12,901, as of
     March 31,2005. Education awards are not earned until the end of the current
     program year, and therefore we did not question the awards.
2.   City Year could not provide support that a background check was conducted for one
     of the five members tested in PY 2004-2005 that had contact with children. City
     Year stated that a background check request was submitted to the FBI, but the results
     were never received. The AmeriCorps Provisions, B.6.h, Criminal Record Checks,
     requires programs with members or employees who have substantial direct contact
     with children or who perform service in the homes of children or individuals
     considered vulnerable by the program, shall, to the extent permitted by state and local
     law, conduct criminal record checks on these members or employees as part of the
     screening process. We questioned all living allowances claimed for this member of
     $3,397, as of March 3 1,2005. Education awards are not earned until the end of the
     current program year, and therefore, we did not question the awards.
                                                                     CllIIo11t r (.omllany   LLV
                                                                     635 Slam Lane

Company                                                              4'l' Floor
                                                                     Alexandria, VA 22314


     September 2,2005

     Office of Inspector General
     Corporation for National and Community Service


                                 INDEPENDENTAUDITORS' REPORTON
                                COMPLIANCE AND INTERNAL CONTROL


 We have audited costs incurred by City Year, Inc. for the following grants and have issued
 our reports' thereon dated September 2,2005. We conducted our audits in accordance with
 auditing standards generally accepted in the United States of America and generally accepted
 government auditing standards.

 Direct Grants
     Program                              Grant No.             Grant Period                        Audit Period
     AmeriCorps National Direct        00ADNMA006            07/01/00-06/30/03 07/01/02-06/30/03
     AmeriCorps National Direct        03NDHMA002            07/08/04-09/04/06 07/08/04-03131/05
     AmeriCorps Challenge Grant        03IPHMA001            08/27/03-08/26/04 08/27/03-08/26/04

 Subgrants with State Commissions
               Program                     Subgrant No.             Grant Period                     Audit Period
 AmeriCorps State Competitive          00ASCIL0141901 07/01/00-06/30/03                            07/01/02-06/30/03
 Amencorps State Competitive           00ASCMA0220101 07/01/00-06/30/03                            07/01/02-06/30/03
 AmeriCorps State Competitive          03ACHMA0010001 0811 1103-06/30/06                           0811 1103-03/31/05
 Amencorps State Competitive           00ASCMI0232801 07/01/00-06/30/03                            07/01/02-06/30/03
 Amencorps State Formula2              03AFHMI0020003 09/01/03-08/31/06                            09/01/03-09/30/04
 AmeriCorps State Competitive          00ASCPA0391701 07/01/00-06/30/03                            07/01/02-06/30/03
 Amencorps State Competitive           03ACHPA0010001 0811 1103-08/10/06                           0811 1103-03/31/05
 AmeriCorps State Competitive          03ACHDC0010002 07/06/04-07/05/07                            07106104-03/31/05
 AmeriCorps State Competitive          00ASCTX0451601 07101/00-06/30/03                            07/01/02-06/30/03




 I
  There are separate Independent Auditors' Reports on the claimed costs for each state commissions' subgrants
 and another report on the Corporation's direct grants to City Year. This combined report discusses the
 compliance and internal control issues over all grants.
  City Year was awarded a three-year grant with the State of Michigan Department of Career Development;
 however, it only ran a formula program with the Commission for PY 2003-2004.
COMPLIANCE

As part of obtaining reasonable assurance about whether financial schedules are free of
material misstatements, we performed tests of compliance with certain provisions of laws,
regulations, and grants, noncompliance with which could have a direct and material effect on
the determination of financial schedule amounts. Providing an overall opinion on
compliance with these provisions was not an objective of our audit, and accordingly, we do
not express such an opinion. Results of our tests disclosed instances of noncompliance that
are required to be reported under generally accepted government auditing standards (Finding
Nos. 1,2,3, and 4).

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit, we obtained an understanding of City Year's internal
control over financial reporting to determine audit procedures for the purpose of expressing
our opinion on the financial schedules and not to provide assurance on internal control over
financial reporting. We noted, however, matters involving internal control over financial
reporting and its operation that we consider to be reportable conditions. Reportable
                                  -
conditions involve matters coming to our attention relating- to significant
                                                                  -         deficiencies in the
design or operation of internal control over financial reporting that, in our judgment, could
adversely affect City Year's ability to record, process, summarize, and report financial data
consisteh with assertions of management in the financial schedules     i in din^ No. 1).

A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control
structure would not necessarily disclose all matters in the internal control structure that might
be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. We do not consider any of the
reportable conditions to be material weaknesses.

FINDINGS

I.     City Year did not have adequate procedures to ensure compliance with member
       requirements.

City Year did not always obtain and review criminal background checks for members prior to
placing those members in a school system, whereby the members had substantial, direct
contact with children. We sampled 160 members, at 13 sites, and noted:

       .       Three of City Year's sites under the National Direct program and two
               additional sites under a state commission subgrant did not have documentation
               that background checks were obtained or reviewed for one member per
               location in our sample. Under one additional state commission subgrant, City
               Year did not have adequate documentation that a background check was
               performed for one member. The site noted that the review was online with no
               printed report.

               One site (including programs under each of the National Direct programs and
               a state commission submant) did not maintain adequate documentation that
               background checks were pe;formed. Available documentation was an internal
               memorandum from the site director that no problems were noted with the
               members. This was done after the site director went to the local court system.
               However, there is no third-party documentation that a background check was
               performed for all 21 members sampled from this location and would affect
               every member at this site.

               One site under the National Direct program had background checks performed
               by the school board where the members are placed. During PY 2004-2005,
               the program site requested background checks in a timely manner, and the
               results were provided to the school system in a timely manner. However, no
               one at the school system reviewed the reports for several months. After the
               school system representatives reviewed the reports, they concluded, based on
               school system criteria, that two members would not be appropriate in the
               program. However, those members had already served in the school system.
               This issue affects all members at this program site for PY 2004-2005.

               Many program sites request background checks as soon as the member
               completes the application process. However, the organization providing the
               background check often takes a substantial amount of time to complete the
               review, and the members have already started their service term prior to
               receiving the results of the review. There were 39 members that started
               working in the school system prior to the date that details of the background
               check were provided to the program. We could not estimate the number of
               members outside our sample that were affected by this issue.

At many sites, City Year follows the requirements of individual school systems, some of
which allow a member to start work as long as the background check has been initiated. But
in any case, City Year does not believe that there is discreet guidance from the Corporation
that requires that member background checks be received and reviewed prior to the member
starting the program. It further noted that they have no control over the organization
providing the background check (State Police, FBI, etc.) and, if they waited for the
information, many programs would be delayed several months.

The AmeriCorps Provisions, B.6.h, Criminal Record Check, requires programs with
members who have substantial direct contact with children to conduct criminal record checks
on these members. We believe that not performing background checks or not performing
them in a timely manner could result in children or other vulnerable persons being placed in
harm's way.
Recommendation: We recommend that the Corporation:

               Ensure that City Year obtains background checks and maintains supporting
               documentation for all members;

        .      Revise policies and procedures to require grantees to obtain and review
               background checks before members have contact with children if required by
               state law or when state law is silent on this requirement; and

        .      Ensure that City Year documents instances in which state law allows members
               to work with children while background checks are being performed. This
               documentation, once provided, may eliminate certain questioned costs in this
               report.

City Year Response: City Year noted:

        .      Completed background checks are not a criteria for enrollment and disagrees
                                                                                  -
               that living- allowances should be questioned in instances that background
               checks were not maintained in thd member file.

               They operated within the state and local laws, and disagrees that background
               checks were not obtained or reviewed in a timely manner.

       .       AmeriCorps provisions do not require that background checks be maintained,
               nor do the provisions provide guidance on the type of check that is to be
               performed. Additionally, in the 2002 Provisions the language that required
               the records to be maintained was eliminated.

City Year however has instituted a new Comprehensive Member Background Check Policy
in September 2005. This policy was submitted to the Corporation's Office of Grants
Management and the Ofice of General Counsel.

Auditors' Additional Comments: We agree that the lack of members' background checks or
supporting documentation is not an eligibility issue; however, we believe that not obtaining a
background check or reviewing it timely is a grant compliance issue. Ensuring that members
have an adequate background check prior to contact with children (to the extent allowed by
state and local laws) is crucial to ensuring that children are not in harm's way. While
background checks are not required to be in the member file, the grantee must maintain
documentation sufficient for us to conclude that it complied with this provision. City Year's
submission to the Corporation of its new member Background Check Policy should help in
the resolution of the recommendations.

2.     City Year claimed unallowable and unsupported costs.

The notes to Schedules A and B describe questioned costs of $16,298. Additionally, we have
identified questioned costs and education awards in other audit reports of City Year's
subgrants from other state commissions and its grants directly from the Corporation. These
questioned costs consist of costs claimed by City Year for which there is documentation that
claimed costs were expended in violation of laws, regulations, specific conditions of grants,
or costs that require interpretation of allowability by the Corporation or unsupported costs
claimed by City Year that require additional documentation to support allowability.

City Year does not adequately charge staff labor costs to its Federal grants. Specifically:

               Staff members at site locations do not identify which Federal grant they are
               working under. Therefore, if there is more than one open project at that site or
               grants have overlapping performance periods, the employee is not determining
               where the labor should be charged. This labor issue also would apply to those
               site locations that run both subgrants for state commissions and National
               Direct grants. The City Year accounting office has rules that are applied to
               the labor costs based on the employees' departmental code, which provides
               for allocating the direct labor costs to a particular grant. This procedure
               allows for the possibility that the accounting staff can arbitrarily allocate labor
               costs to any grant, move labor costs to grants with more available funding, or
               move labor costs away from a grant that has expired. Employees at site
               locations do not review Financial Status Reports (FSRs) or Periodic
               Expenditure Reports (PERs) to ensure that labor (or other) costs are charged
               appropriately.
       .       Employee vacation expenses were charged to programs as vacation is taken,
               not as vacation is earned. Therefore, vacation charges are allocated to the
               employees' currently assigned department code, as noted above. It is possible
               for a federal grant to be charged for employee's vacation time, although the
               vacation time was earned while the employee was working on a different
               Federal grant. As Federal grants expire or employees move to another
               program, leave costs are easily misallocated.

OMB Circular A-122, Attachment B. Section Km., Compensationfor Personal Services,
Support of Salaries and Wages, requires that labor charges be allocated based on personnel
activity reports unless a substitute system has been approved in writing by the cognizant
agency. The Circular requires that personnel activity reports must be a signed, after-the-fact
representation of each employee's activity in order to ensure that employees incurring the
labor charges are aware and responsible for the charges to the respective federal grants. City
Year management has the ability to assign labor to any federal grant without the knowledge
of the employee.

City Year noted that it has a very sophisticated accounting and timekeeping system that
creates a relationship between the departmental code (or Federal program) that the labor
costs are charged to and the employee. If the system was modified to incorporate the effect
of labor hours on the timesheet for each vav..                                    ..
                                              veriod. this would cause delavs in vavroll and
financial reporting. Additionally, City Year noted that employees rarely move from one
program to another, so the changes to the labor allocations would be minimal.
Recommendation: We recommend that the Corporation:

               Determine if unsupported labor costs and applicable administrative costs
               should be disallowed and recovered; and

               Require City Year to revise its labor distribution system to allow for the
               employee to determine (and be aware) of the Federal grant that their labor
               costs are being charged to.

Cig Year Response: City Year noted:

               Timesheet reporting: City Year believes that its timekeeping system
               accurately allocates staff labor to the programs because City Year dedicates
               100 percent of its time to AmeriCorps programs; there is little overlap in
               program performance periods; and there are only a few City Year locations
               that operate more that one grant at a time. City Year, however, will work with
               the Corporation to set up additional controls to independently verify that staff
               labor is accurately allocated.

               Vacation Allocation: Vacation expense is not directly allocated to a grant, but
               is charged to the General Fund, and when vacation is taken, the expense is
               allocated the grant they are currently working on, and there is very little staff
               movement among programs.

       .       Unsupported and unallowable costs. City Year's accounting systems are
               adequate, and because City Year incurs more match than is required under all
               of their grants, they will not contest the unsupported costs identified, but
               rather will substitute other allowable costs not previously claimed.
               Additionally, City Year provided additional training to financial analysts in
               December 2005.

Auditors' Additional Comments: City Year did not propose actions to resolve this issue
beyond working with the Corporation. Changes are necessary to ensure it charges labor
correctly, including charging vacation expense when earned. Otherwise, City Year may
charge its costs to Federal appropriations not available for obligation and expense when the
cost was incurred or charge the costs to future Federal funding that was provided for other
purposes. We agree that City Year may have incurred other allowable program costs that it
has not claimed. The Corporation will need to review City Year's documentation to ensure
that submitted substitute costs are allowable and not previously claimed under other
programs.

3.     City Year should improve procedures to ensure compliance with all grant
       provisions.

City Year could improve its grant compliance performance in four areas. Specifically
member contracts did not identify all prohibited activities, certain FSRs and progress reports
were not submitted in a timely manner, record retention policy did not comply with grant
requirements, and City Year provided health insurance to part-time members without
approval from the Corporation.

Member Contracts-Prohibited Activities

City Year member contracts did not contain all prohibited activities. The ArneriCorps
Provisions, B.4, Prohibiled Program Activities, does not allow the grantee to use grant funds
to support several listed activities including any activity that provides a direct benefit to a
nonprofit entity that fails to comply with the restrictions contained in section 501(c) (3) of
U.S. Code Title 26. City Year was not sure why that specific activity was not identified in its
member contract, however it has already added that activity to the member contract.

Untimely FSRs and Progress Reports

City Year did not submit all required FSRs in a timely manner. The following reports were
submitted late:


                              Challenge Grant 03IPHMA001
         Report             Period Ended        Due Date       Submittal Date Days Late
       03-04 FSR               09/30/03          10/31/03         11/14/03            14
       03-04 FSR               12131103          01/31/04         04114/04            74


                              National Direct 03NDHMA002
        Grant #           Period Covered        Due Date      Submittal Date      Days Late
 03NDHMA002              07/08/04-09/30/04       10/30/04         03/25/05            146
 03NDHMA0020001          04/01/04-06/30/04       09/28/04         03/23/05            176
 03NDHMA0020005          04/01/04-06/30/04       09/28/04         03/23/05            176
 03NDHMA0020006          07/08/04-09/30/04       10/30/04         11/19/04             20
 03NDHMA0020007          07/08/04-09/30/04       10/30/04         03/31/05            152
 03NDHMA0020008          07/08/04-09/30/04       10/30/04         11/23/04             24
 03NDHMA0020009          07/08/04-09/30/04       10/30/04         11118/04             19


For the National Direct programs, the AmeriCorps Provisions, B.16.a.ii, Financial Status and
Progress Reports, establishes due dates for biannual reporting. Historically, reports were due
30 days after the 6-month reporting period ends. FSRs for City Year's Challenge Grant were
due quarterly, one month after the quarter ended, in accordance with Challenge Grants Fiscal
Matters, 11, and the AmeriCorps Provisions. In addition, state commissions require FSRs and
progress reports to be submitted either in accordance to the specific subgrant agreement, or at
a minimum in accordance with the same AmeriCorps Provisions as the National Direct
grants. Certain state commissions may also have reporting requirements for Periodic
Expense Reports (PER). Under three different state commission subgrants, City Year
submitted a total of seven FSRs after the state commission due dates. Likewise, for five
different state commission subgrants, City Year submitted six progress reports after the due
dates. Additionally, two state commissions established contractual due dates for PERs. For
both subgrants, City Year submitted 18 of the required PERs late.

Record Retention Policy

City Year has a detailed record retention policy that specifies the number of years items must
be retained based on the type of accounting document. For example, time sheets are retained
for three years, and workers' compensation records are maintained for six years. City Year
does not have a specified retention policy for member files, contracts, proposals, and other
grant documents. The AmeriCorps Provisions, Retention of Records, requires that grantees
retain all program and financial records for three years from the date of submission of the
final FSR. Additionally, if an audit is started prior to the expiration of the three-year period,
the records must be retained until the audit findings are resolved and final action is taken.

Health Insurance for Part-time members

In our sample of 160 members, City Year provided health insurance to one part-time member
and claimed the expenses under that grant. The 2004 AmeriCorps Provisions, B.11.e, Health
Care Coverage, states that grantees must provide health insurance to full-time members,
however the Corporation will not cover health care costs for family members or part-time
members. City Year believed that approval of a slot conversion from full-time to part-time
authorized them to provide and claim health insurance. This issue affects 5 sites under
different state commission subgrants, and 5 sites under City Year's National Direct programs
for a total of 35 members.

Recommendation: We recommend that the Corporation ensure that City Year:

       .       Identifies all prohibited activities in its member contracts;

       .       Strengthens procedures regarding timely submission of financial and progress
               reports;

               Revises its record retention policy to comply with grant provisions; and

               Strengthens controls to obtain approval from the Corporation for health care
               provided to part-time members, or ensure that costs are not claimed. We
               further recommend that the Corporation require City Year to quantify any
               excess costs and applicable administrative costs claimed for these health care
               costs.
City Year Response: City Year noted:

               Member Contracts: City Year has incorporated a clause into each member
               contract for the 2005-2006 program year.

               Untimely reporting: City Year has created a position (Service Operations
               Manager) in PY 2005-2006, who is responsible for timely reporting.

               Record Retention Policy: City Year has revised its policy and will submit this
               change to the Corporation's Office of Grants Management.

               Health Insurance for part-time members: City Year was not aware that
               approval of slot conversions from FT to PT positions did not constitute
               approval to provide health insurance, and City Year was not instructed by its
               Program Officers to request permission. City Year will seek Corporation
               retroactive approval for all part-time members.

Auditors' Additional Comments: We believe actions taken by City Year will help the
Corporation resolve these recommendations.

4.     City Year should improve its documentation of member activities.

City Year did not adequately document certain member activities in accordance with the
AmeriCorps Provisions. Specifically, some member files did not contain a mid-term
evaluation or did not have member signatures on the mid-term or final evaluations.
Additionally, final evaluations were prepared prior to member completing their service term,
and therefore did not contain all required information. Certain enrollment and exit forms
were submitted late. Finally, hours reported to the Corporation's Web-Based Reporting
System (WBRS) for some members were not supported by member timesheets. We sampled
160 members and noted the following:

Evaluations

Two mid-term and two final evaluations were not signed by members, which would
document that the review was performed and seen by the member, and one member file did
not contain a mid-term evaluation. Additionally, many program sites complete the final
evaluations prior to a member completing their service term. Therefore, the number of
completed service hours on the evaluation either was left blank, or noted the number of hours
completed to date. However, the total hours the member worked was not documented, and
may not be enough hours to earn the stated education award.
Evaluations are necessary to ensure that members are eligible for another term of service.
According to 45 C.F.R. § 2522.220 (d), Participantperformance review, a participant is not
eligible for a second or additional term of service andlor for an AmeriCorps educational
award without mid-term and final evaluations. Additionally it requires that grantees conduct
at least mid-term and end-of-term evaluations of each member's performance, documenting
that the member has:

               Completed the required number of hours.

       .       Satisfactorily completed assignments.

               Met other performance criteria that were clearly communicated at the
               beginning of the service term.

Enrollment and Exit forms

City Year did not submit all required enrollment and exit forms in a timely manner.
Additionally, we found numerous documentation issues with member time sheets.
Specifically:

               19 member enrollment forms were not entered into WBRS within 30 days.

               15 exit forms were not entered into WBRS within 30 days.

       .       One change of status form was not entered into WBRS within 30 days.

The AmeriCorps Provisions, B.16.b, AmeriCorps Member to Related Forms, requires that
member enrollment forms be submitted to the Corporation no later than 30 days after a
member is enrolled and that member exitlend-of-term-of-service forms be submitted no later
than 30 days after a member exits the program.

City Year's existing procedures provide for controls that would ensure that forms are
completed and submitted in a timely manner; however, these procedures were not followed
in all instances. When City Year submits information late, the Corporation's enrollment
records will be inaccurate.

Member sewice hours reported in WBRS

Hours recorded in WBRS were not always properly supported by member time sheets.
AmeriCorps, Education Award Program,-      and Promise Fellow Provisions, Financial
Management Provisions, Time and Attendance Records, require that grantees keep time-and-
attendance records on all AmeriCorps members to document their eligibility for in-service
and post-service benefits. The corporation uses time-and-attendancehfokation in WBRS
to track member status, and this data is the basis for appropriate education awards. City Year
program personnel made data-entry errors when recording member hours in WBRS.
Member hours supported by time sheets varied from hours recorded in WBRS for
64 members; 44 members had hours recorded on time sheets that exceeded WBRS hours and
20 members had hours recorded on time sheets that were less than hours reported in WBRS.
For 3 of those 20 members, the hours supported by member time sheets did not support the
required number of hours to earn the education award. As a result, we questioned education
awards for those members totaling $14,175.

Recommendation: We recommend that the Corooration ensure that Citv Year strengthen its  -
program monitoring procedures to comply with grant requirements for conducting and
retaining member evaluations; comvleting enrollment and exit forms in a timely manner, and
ensuringthat all hours reported in the W ~ R system
                                             S      are adequately supported by member
time sheets.

City Year Response: City Year noted:
        -      Member Evaluations: City Year has a sophisticated Performance
               Management System for all members, and further noted that signatures on
               member evaluations are not required by the provisions. Two of the four
               missing signatures, and the missing evaluation were attributable to PY 2002-
               2003, which was prior to the implementation of that System.

               The requirement to include the final number of completed service hours on the
               final member evaluation is impractical if not impossible. It would require that
               all final evaluations be given on the same day, causing the evaluation to be
               much shorter which would de-value the benefit of the evaluation. Final hours
               are also tracked on the timesheets, the exit form, and in WBRS.

               Enrollment and Exit forms: 15 of the 19 late enrollment forms were in
               PY 2002-2003, noting that significant improvements have been made to
               ensure that all forms are completed timely. City Year has a system in place,
               which educates the program sites on due dates, and then periodically reviews
               WBRS for timely reporting, among other things.

               Member Service Hours in WBRS: City Year realizes that data entry errors
               can occur when timesheet hours have to be manually entered into WBRS.
               City Year has dramatically reduced the likelihood of these errors through
               implementation of a payroll generation report that compares aggregate hours
               to hours in WBRS. City Year believes that the best way to eliminate the
               possibility of these errors is to eliminate the intermediate step of entering time
               into WBRS, and expand the capability of WBRS so that members can enter
               their time directly into WBRS, with supervisory approval.

Auditors' Additional Comments: We believe actions taken by City Year will assist the
Corporation in resolving this finding and the recommendations. We note that City Year
indicated that the provisions do not require signed evaluations. The general practice of
signing evaluations provides for accountability and authenticity.
This report is intended solely for the information and use of the Office of Inspector General,
the Corporation for National and Community Service, City Year, and the US. Congress, is
not intended to be, and should not be used by anyone other than these specified parties.


COTTON& COMPANY
              LLP



Sam Hadley, CPA I
                 -011
Partner
                                     Appendix A




City Year Response to Audit Report
d
CI'
P
HEADQUARTERS February 22,2006
  285 Columbus Avenue
   Boston, MA OPl 16

    Tel: 617.997.2500
    Fax: 617.927.2SlO
                          Carol Bates
                          Acting Inspector General
                          Corporation for National and Community Service
        BOSTON            Office of the Inspector General
                          120 1 New York Avenue, NW, Suite 830
       CHICAGO
                          Washington, District of Columbia 20525
      CLEVELAND


       COLUMBIA


      COLUMBUS
                          Dear Ms. Bates:

        IDEIROIT          Below please find the City Year, Inc. response to the OIG Audit Reports 06-1 6 to 06-22 for
                          our National Direct Grants and Challenge Grant (06-16) and our sub-grants though the state
      LITTLE ROCK
                          commissions for the District of Columbia (06-20), Illinois (06- 19), Massachusetts (06- 17),
    NEW HAMPSHIRE
                          Michigan (06- 18), Pennsylvania (06-21) and Texas (06-22). The D a f t Report 06- 16 was issued t o
                          City Year for comment on January 25,2006.
      NEW YORK

                          As you are aware, City Year has worked cooperatively with the CNCS auditors over the
 GREATER PHILADELPHIA
                          approximate six months of fieldwork and has continuously demonstrated responsiveness t o
    RHODE ISLAND          requests for information and feedback. W e would like t o express our appreciation t o Cotton &
                          Co. for the highly professional manner in which the auditors managed the audit. Although we do
    SAN ANTONIO
                               - with all of their findings,
                          not agree                       - we would like t o note that they were organized and clear in
                          their requests and respectful of our time and commitmenrs.
SAN JOSE/SILICON VALLEY


 SEATMIKING COUNTY        City Year will continue to work in cooperation with the CNCS Audit Resolution Specialist over
                          the coming months t o resolve any disagreements we have with the audit findings.
    SOUTH AFRICA

   WASHINGTON, DC
                          Included below are City Year's responses t o each of the audit findings. The findings are grouped
                          under the Compliance Finding header identified in the Auditor's Opinion. Our responses to
                          specific questioned costs are included in the attached Amendments A l to A5 for the
                          corresponding audit report

                          Compliance Finding #I: City Year did not have adequate procedures to ensure
 NATIONAL LEADERSHIP      member eligibility:
      SPONSORS

  Bankof America          A) Completed background checks are not a criteria for Eligibility t o Enroll in AmeriCorps, as
                             per the Provisions Section B.6.a "Eligibility t o Enroll" and Definitions 9 "Member"
                             (AmeriCorps Provisions 2002-2003) and Section B.6.a and Definition I 4 (AmeriCorps
                             Provisions 2003-2004 and 2004-2005).Therefore, City Year disagrees with this finding and
                             the inclusion of questioned costs relating t o the finding that some member files did not
                             contain background checks.

                                                                                                                            C q Year, lnc.
                                                                                 Response to Inspector Generah Audit Repom 0616 ro 06-22
                                                                                                                             Page I of 10
B) City Year operated within the extent of state and local laws for the grant years audited in
   relation t o background checks and we request that these findings relating t o eligibility be
   removed from the Final Report because these findings are not accurate. State laws
   regulating background cheiks, where applicable, were provided t o the auditor during the
   fieldwork phase. City Year disagrees with all findings regarding the timeliness,
   documentation of and review period of background checks based on: per the stated
   Provisions B.6.h. A) there is no requirement t o retain documentation of background checks;
   B) there is no requirement as t o the type of documentation maintained; and. C) there is no
   requirement as t o when the background check is conducted or reviewed. In the 2002-2003
   AmeriCorps Provisions, under Key Changes t o the 2002 Provisions, it is noted that Section
   6.h Criminal Background Checks "was revised to eliminate the language that criminal
   records should be maintained in the member or employee files" (emphasis added). Guidance
   surrounding background checks is unclear in the AmeriCorps Program Director's
   Handbook and CNCS provided no instruction on the conduct or maintenance of criminal
   background checks during the audit period. Retention, documentation, and timeliness of
   background checks is not specified in the Provisions.

   City Year understands the importance of completing background checks before placing
   members in contact with vulnerable populations and embraces our duty t o ensure the safety
   of those we serve W e have instituted a comprehensive Corps Member Background Check
   Policy, which was introduced t o all sites at our annual staff training retreat, Summer
   Academy, on August 10,2005. W e submitted a copy of the Policy t o the Corporation's
   Office of Grants Management on August 17,2005 and to the Office of General Counsel on
   October 2 1,2005. Additionally, CNCS initiated a rulemaking process on October 17, 2005,
   Federal Register Vol. 70, No. 199, to address the lack of clarity in the Provisions regarding
   background checks. City Year participated in the CNCS conference calls t o solicit input on
   the proposed rule change and has provided other assistance relevant t o CNCS' policy
   development.


Compliance Finding #2: City Year claimed unallowable and unsupported costs.

   A) Timesheet Reporting City Year believes that the timesheet system currently in place
      accurately allocates staff labor t o the correct grant.
                                                       -      As a stand alone AmeriCorps
      program,' 100% of our program staff time goes towards the implementation of the
      AmeriCorps program. There is almost no overlap in program performance periods and
      there are only a few instances where a City Year site operates more than one grant at a
      time. Because site staff work full time on the AmeriCorps program and staff do not
      work at multiple sites, there is little deviation in how program staff report their time
      week t o week. In response t o the auditor's concerns. City Year will work with CNCS
      during the audit resolution t o set up an additional control, such as a quarterly review
      where staff can independently verify that their time was accurately allocated.

   B) Vacation Allocation: Accrued vacation expense is not allocated t o any grant. All accrued
      and unpaid vacation expense is allocated to the General Fund (unrestricted) and not t o

                                                                                                    Cily Year, Inc.
                                                     Response to Inspectot General's Audh Reporli 0 6 1 6 to 06-22
                                                                                                     Page 2 of 10
       capacity with authorization from the Corporation. It is important t o note that City Year
       does not include Part-Time positions in our budget, only Full-Time Equivalents (now
       MSY). If all slots are not filled by the end of September, we request that Full-Time slots
       be converted t o Part-Time so that we can bring in members t o serve January t o June.
       City Year was not aware that approval of slot conversions from a Full-Time position t o
       a Part-Time position did not constitute approval to provide health insurance nor were
       we instructed by any of our Program Officers t o request permission. City Year will seek
       approval from the Corporation t o provide health insurance t o all Part-Time members.

Compliance Finding #4: C i t y Year could improve t h e i r documentation o f m e m b e r
activities.

   A) Member Evaluations: City Year has a very sophisticated Performance Management
      System for our corps members. A t the beginning of the year the members complete a
      Corps Member Performance Plan outlining their goals and expectations for the year.
      The member then completes a mid-term review and an end-of-term review, which tests
      performance against what was outlined in the start of year Plan. Thorough inscrucrions
      and extensive training is provided t o the supervisory staff and the members. Although
      the Provisions do not require that the evaluations be signed, City Year stresses the
      importance of receiving all appropriate signatures.

           a.:seruta
                   n
                   ei~
                     M
                     -                  Two of the four occurrences were in program year 2002-
                    2003 before the current policy went into effect. The remaining two occurrences
                    can be attributed t o the termination of program staff at the site during program
                    year 2003-2004.

          b.                     This occurrence was in program 2002-2003, prior t o the
               time the current policy went into effect.

          c.   ComDlecionCity Year values the performance
               evaluation as a tool for both the corps member and the organization to assess
               development of the member and the success of our program. However, it is
               impractical and often impossible t o complete the evaluation in accordance with
               the Provisions. In order t o meet the auditor's recommendations and include the
               final hours on the Evaluation, programs would have t o complete the final
               evaluation on the last day of service and sometimes in the last hour of service if
               the member serves 1700 hours exactly. This would mean that across the
               network our site staff would have t o conduct approximately 900 evaluations on
               the last day of the program. To accomplish this, the evaluation would have t o be
               so scaled back that it would have limited, if any, value t o the member and City
               Year. Final hours are also tracked on the timesheets, on the signed copy of the
               Exit Form and in WBRS. In our M 0 6 final performance evaluations the section
               for reporting hours has been moved from the end t o the first page and a section
               has been added for sites to identify how members will reach the minimum hours
               by Graduation Day if the member has not already served 1700 hours or 900 for
               Part-Time members.

                                                                                                 C i Yeor. Inc
                                                       Rcspnre to Inspeaor Generok A u d Repom 06-16 to 0 6 2 2
                                                                                                 Poge 4 of 10
     B) Enrollment and Exit Forms: City Year has adequate systems in place t o ensure that
        WBRS is updated in a timely manner, as indicated by the fact that 15 of the 19 late
        enrollments occurred in program year 2002-2003.A t the beginning of the year,
        Headquarters department of Government Relations circulates the due dates for all
        WBRS enrollments t o the sites AmeriCorps liaison who is responsible for ensuring that
        WBRS data is up t o date and sends out reminders. WBRS data is reviewed throughout
        the year by the National Corps Support Coordinator in Government Relations.

         Periodic WBRS reviews consist of:

             a.   Pre-enrollment due date review and reminder;
             b. Post-enrollment due date review and follow up if any are not approved;
             c. Monthly WBRS time log, early exit and change of status reviews and notification
                t o site with carry-over of any outstanding issues;
             d. Pre-exit due date review (for members who serve through graduation) and
                reminder; and
             e. Post-exit due date review and follow up if any are not approved.

    C) Member Service Hours r e ~ o r t e din WBRS: The discrepancy between hours reported
       on timesheets compared t o the information found in WBRS is a result of data entry
       error caused when staff manually enter hours from timesheets into WBRS. The error
       rate was significantly reduced in program year 2003-2004through introduction of a
       payroll report generation system that City Year developed. The member hours are
       entered into the payroll system which generates simplified reports with the aggregate
       weekly service and training hours which the site staff then use t o enter data.. City Year
       believes that the best way t o reduce these types of human error is t o eliminate the
       intermediary step between entering into the timesheets and into WBRS. Expanding the
       capabilities of WBRS so that the member can enter their hours directly into the system
       and the supervisor can approve or return t o the member for correction would
       eliminate the intermediary step where data entry error occurs. [See Amendment A41

Again, we would like t o express our appreciation t o Cotton & Co. and we look forward t o
working with the Audit Resolution specialist and the Corporation over the coming months t o
make our program stronger.

Sincerely,




                                                      Response m Inspector Genemh Avdk Repom 06-16 to 0 6 2 2
                                                                                               Page 5 of I0
A m e n d m e n t A4: OIG A u d i t Report 06-21: PennSERVE: T h e Governor's Office o f
Citizen Sewices

Finding # 4.C: Education award for member whose hours are not supported by WBRS. This
member began service in September 2002 and had an anticipated graduation date in June 2003.
The member was not able t o complete his hours by graduation and, because full time members
have a full year in which to complete their service, he continued to serve over the summer
while the corps was out of session. The staff Project Manager who provided direct supervision
of this member confirms that he did complete his hours and timesheets. At issue is that the
timesheets for two weeks of service in August 2003 were not appropriately filed. City Year will
work with the Audit Resolution specialisf and PennSERVE, as needed, t o resolve this issue.




                                                                                                     City Year, lnc.
                                                     Response to Inspector General's A u d   Repom 06-16 to 06-22
                                                                                                      Page 9of 10
                                       Appendix B




Corporation Response to Audit Report
                                      cmxi'i i'kAL           &
                                      COMMUNITY
                                      SERVICE-



To:

From:
                        ,
                        /
Cc:                                                             6
               Elizabeth D. ~i'rje,Acting Director of A m e ~orps
               Tory Willson, Audit Resolution Coordinator, Office of the CFO

Date:          February 23,2006

Sub:           Response to OIG Draft Audit Reports 06-16 through 21: Audit of Grants and
               Subgrants Awarded to City Year, Inc.


Thank you for the opportunity to review the draft Audit Reports of Grants and Subgrants
Awarded to City Year, Inc. The Corporation has also reviewed the response fiom City Year, Inc.
We are addressing only one issue at this time. We will respond to all findings and
recommendations in our management decision when the final audits are issued; we have
reviewed the findings in detail; and worked with the City Year to resolve the audits.
As noted in the draft summaries, the auditors questioned $365,643, about 96% of the questioned
claimed grant costs, because members were either serving in the school system prior to the site's
receipt of the results of background checks or there was no evidence of criminal background
checks on members who were ~ r 0 ~ i service
                                          d h to children. In Citv Year's resuonse to the dmft
audit, they indicated that they Lderstanld the importance of complebg backgrhnd checks and
have instituted a comprehensive Corps Member Background Check Policy.

Because the Corporation considers the lack of a criminal backmund check to be a m t s
compliance issue, not a failure to meet statutory eligibility re&rements, we will al6w
questioned costs that result from this finding. However, while the finding- may. not result in
disallowed costs, background checks are aniimportant compliance issue and are required for
members who have substantial contact with children and other vulnerable populations during
their term of service. The Corporation is also reviewing its current guidance on background
checks and expects to issue regulations in the near future.

The Corporation will address the remaining questioned wsts and other findings during audit
resolution after the audits are issued as final.




                            1201 New York Avenue, NW     *
                                                     Washington, DC 20525
                                                  *
                                  202-606-5000 www.nationalservice.org
                            Senior Corps   * AmeriCorps * Learn and Serve America
                                     Appendix C




PennSERVE Response to Audit Report
                                                                 PennSERVE
                                              THEGOVERNOR'S
                                                         OFFICEOF CITIZENSERVICE
                                                      1306 LABORAND INDUSTRY BUILDING
                                                        SEVENTHAND FORSTER STREETS
                                                               HARRISRIIRG.
                                                                        PA 17120



February 27,2006

Ms. Carol Bates
Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Ms. Bates:

We are in receipt of the Draft Audit Report 06-21, Audit of Subgrants Awarded to City Year, Inc.
through PennSERVE. We appreciate the opportunity to provide comment.

PennSERVE: The Governor's Office of Citizen Service takes very seriously its obligation to
monitor its sub-grantees, for AmeriCorps grant compliance and continuous improvement.
Accordingly, PennSERVE has established a comprehensive monitoring system that features a
variety of protocols, including regular communication opportunities, monthly WBRS monitoring,
and site visits where member records are inspected using a reasonable sampling methodology. In
addition, PennSERVE conducts regular, on-site financial reviews of its sub-grantees using the
services of Commonwealth of Pennsylvania audit staff.

Like each of our sub-grantees, City Year Greater Philadelphia has been monitored throughout every
AmeriCorps contract year, using the above-mentioned protocols. The staff has welcomed all
recommendations and has cooperated in taking action to overcome any identified weaknesses.

With specific reference to the questioned costs identified in Schedules A and B of the Report, we
note one education award issue due to insufficient supportive timesheets for the AmeriCorps
member; and living allowance issues for service prior to receipt of criminal background checks.

We fully expect that City Year will implement corrective action in response to these issues if it has
not already done so. In any event, PennSERVE plans to utilize this draft report as part of our
strategy for monitoring progress on follow-through efforts. We anticipate that City Year will handle
the matter with its typical thoroughness and efficiency.

Once again, we thank you for your report and for the inclusion of our agency in this process.

Sincerely,   /         /

Executive Director
                     u
cc. Ms. Evelyn Barnes, CFO, City Year, Inc.
    Mr. Sean Holleran, E.D., City Year Greater Philadelphia

                                           "An Equal Opportunity Employer"
                  'AAUialy alds and services are avallable upon request to Individuals with disabilities"
